The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                       November 30, 2010



Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (“the IG
Act”), the U.S. International Trade Commission (“USITC” or “Commission”) hereby transmits
the Semiannual Report of the USITC Inspector General for the period April 1, 2010 – September
30, 2010.

The Commission would like to recognize the work done by the Office of Inspector General in
assuring the effectiveness, efficiency, and integrity of Commission programs and operations.
Inspector General Philip M. Heneghan and his staff have provided invaluable assistance to the
Commission during the past few months. We look forward to continuing to work with Mr.
Heneghan as we address the issues raised in his report.

The Inspector General’s Semiannual Report identifies the top management and performance
challenges that require significant attention from the USITC in FY 2011. The Commission
concurs with the critical challenges identified by the Inspector General. The USITC has a long
history of successful performance in the areas of import injury proceedings, intellectual property
enforcement, and industry and economic research, and it has always focused its resources on
providing timely and high quality services to the Administration, Congress, and the public on
trade matters. We continue our efforts to ensure that our internal operations are equally well
managed. We believe that the corrective action plans we have in place will address the
deficiencies identified by the Inspector General, and we already have completed a number of
these corrective actions.

The actions we are taking to address our challenges are summarized in the following three
sections: (1) internal control, (2) financial management, and (3) information technology security.
I will then address the status of actions on Inspector General Recommendations.
Management and Performance Challenges

1.     Internal Control

During the reporting period, the Commission: (1) reviewed and evaluated existing internal
controls; (2) designed and implemented a comprehensive financial management internal control
system that will comply with applicable laws and regulations to ensure that the objectives of the
Federal Managers’ Financial Integrity Act are achieved and documented; and (3) provided
temporary staffing of the management position related to the creation of the new internal control
system/internal control program. The Commission concurs that strong internal controls need to
be operative throughout the agency. Therefore, we have begun to document consistent processes
and procedures agency-wide.

The Commission is aware that implementing these controls will require significant changes in
agency management. Further, it will take considerable time to begin to see the effectiveness of
the internal controls and processes. The Commission also understands that it will have to test the
new system to ensure that the system is adequate and modify it as needed.

2.     Financial Management

As a result of the disclaimer on its 2009 financial statements, the Commission has recognized the
importance and necessity of instituting a system of stronger internal controls over financial
management and is implementing corrective actions to address financial management
deficiencies. The Commission implemented a corrective action response, which is monitored by
the Inspector General. As a result of these actions, the independent auditor has just issued a
qualified opinion on the Commission’s FY 2010 financial statements.

While the most recent opinion is a significant improvement from last year, we recognize that we
have much more to do to ensure that we efficiently manage the resources entrusted to us.
Concurrent with the FY 2010 audit, the Commission is assessing existing staffing agency-wide
to identify the skills and personnel resources needed to implement new internal control and
financial management procedures. In order to address the deficiencies identified by the Inspector
General, the Commission intends to establish a new financial management structure and hire or
train staff with requisite high-level analytical and communication skills. This process is
underway with the recent hire of a new Director of the Office of Procurement Services. In
addition, the Commission will make the necessary changes to ensure transparency and
accountability in the formulation, execution, performance, and management of agency budgetary
resources.

3.     Information Technology Security

Maintaining the security of the Commission’s information technology (IT) infrastructure is a top
priority as information technology is integral to the Commission’s operations. In order to
address the deficiencies identified, the Commission recently hired a Chief Information Officer
(CIO) with extensive federal government IT experience. The Commission has focused resources

                                                2
toward continuity of operation efforts and the CIO has focused his priorities on risk assessment
of the Commission’s information security operations.

The Report notes that the Commission has not completed final action on three recommendations
dating back to 2005 concerning the Commission’s plans for continuity of operations (COOP).
The Commission acknowledges that the three recommendations remain open. The Commission
is working to complete final action on these recommendations in the near term.

The Commission delayed implementing the three recommendations because of other pressing
priorities. In particular, the Commission had to significantly expand its resources for intellectual
property enforcement (i.e., hiring more ALJs and staff and obtaining additional space) due to a
sharp and sustained rise in the number of cases filed before the Commission. The Commission
lacked the resources to implement its continuity of operations plans over the past few years.

To address this deficiency, the Commission this year sought almost $1 million in its FY 2011
budget justification to begin developing a comprehensive continuity of operations plan and an
alternative facility for reconstitution of the USITC network infrastructure and essential functions.
The Commission also is exploring ways to fund its continuity of operations plans by redirecting
resources from its current appropriations should Congress not appropriate the necessary funds.

Actions on Inspector General Recommendations

Management decisions were made on all 20 recommendations that the Inspector General made
during this period. Management decisions have been made and final actions completed for all
recommendations made in prior periods, except for the following that the Commission is
scheduled to complete during the next reporting period: (1) the three recommendations related to
COOP planning discussed in section 3 above, (2) two recommendations related to policies and
procedures for financial management activities, (3) three recommendations related to internal
controls, and (4) one recommendation related to FISMA. The statistical tables required under
the IG Act are included as Appendix B to this report.




Deanna Tanner Okun
Chairman




                                                 3
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


October 31, 2010                                                          OIG-HH-029


Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period April 1, 2010 to September 30, 2010.

Over the past six months, my office issued four audit reports and made twenty
recommendations for ways to improve the Commission’s operations and strengthen
internal controls. The audits focused on management challenges in the areas of financial
management and information system security. In addition, the Inspector General from
National Archives and Records Administration issued the final peer review report of the
Commission’s audit function for the period ending September 30, 2009.

As I near the end of my first year as the Inspector General, I would like to acknowledge
the steps you have taken to support the audit process. For example, the establishment of
an audit follow-up process to track, monitor, report, and manage the implementation of
recommendations emphasizes the importance you have placed on resolving the concerns
raised in our reports. This audit follow-up process resulted in the completion of final
actions on over thirty recommendations during this reporting period.

I look forward to the next six months as we expand our reviews to include all operations
of the Commission. With your continued support, I am confident that we will
successfully meet all the challenges ahead.




Philip M. Heneghan
Inspector General
                   U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS
Office of Inspector General.............................................................................................. 1

Semiannual Report Introduction .................................................................................... 1

Top Management & Performance Challenges ............................................................... 2
  1. Internal Control.......................................................................................................... 2
  2. Financial Management............................................................................................... 3
  3. Information Technology Security .............................................................................. 3

Inspector General Reports Issued this Period................................................................ 4
  Audit on the Examination and Confirmation of the Balance on the Property, Plant,
   and Equipment Account on the 2009 Financial Statement, OIG-AR-07-10 ................ 4
  Audit of Internal Controls Related to the Property Plant and Equipment Account,
   OIG-AR-08-10.............................................................................................................. 5
  Audit on the Patching of ITCNet Workstations, OIG-AR-09-10 ................................... 6
  Audit of Software Inventory, OIG-AR-10-10 ................................................................ 7

Significant Recommendations from Prior Periods ........................................................ 8

External Reviews Completed During This Period......................................................... 8
  Office of Personnel Management – Personnel Security and Suitability Program .......... 8

Status of Actions Related to External Reviews Completed During Prior Periods ... 10
  Office of Personnel Management – Human Resources Review ................................... 10

External Reviews Related to Inspector General Activities ......................................... 10
  Peer Review of the Office of Inspector General Audit Function.................................. 10
  Government Accountability Office (GAO) Review of Inspector General Oversight of
  the Commission ............................................................................................................ 11

Congressional Liaison Activities.................................................................................... 11

Council on Inspectors General for Integrity and Efficiency Activities...................... 11

Regulatory Reviews ........................................................................................................ 12

Federal Financial Management Improvement Act Reporting ................................... 12

Tables and Charts
  Table 1: Reporting Requirements Index ...................................................................... iii
  Table 2: Management & Performance Challenges ........................................................ 2
  Table 3: Reports by Subject Matter ............................................................................... 4
                                                                i
                             Report Period: April 1, 2010 through September 30, 2010
                 U.S. International Trade Commission
                             Inspector General Semiannual Report


   Table 4:    Significant Recommendations from Prior Reports........................................ 13
   Table 5:    Reports with Questioned or Unsupported Costs............................................ 14
   Table 6:    Reports with Recommendations that Funds be Put to Better Use ................. 14
   Table 7:    Status of Reports Issued w/out Final Action ................................................. 14
   Table 8:    Status of Reports With Final Action Completed ...........................................16
   Chart 1:    Average Missing High Severity Patches...........................................................7


Appendices
  Appendix A: Peer Review Results............................................................................. A-1
  Appendix B: Chairman’s Statistical Tables............................................................... B-1




                                                        ii
                          Report Period: April 1, 2010 through September 30, 2010
          U.S. International Trade Commission
                     Inspector General Semiannual Report


                         Table 1: Reporting Requirements Index



                          Reporting Requirements Index

   IG Act                                  Description                        Page
Section 4(a)(2)       Review of Legislation                                    12
                      Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                               2-4
                      Deficiencies
                      Description of Recommendations for Corrective
Section 5(a)(2)       Action with Respect to Significant Problems, Abuses,    2-8
                      and Deficiencies
                      Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                               8, 13
                      Which Corrective Action Has Not Been Completed
                      A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                               None
                      Authorities
                      Summary of Instances Where Information or
Section 5(a)(5)                                                               None
                      Assistance was Unreasonably Refused
                      Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                                4
                      during this Reporting Period
Section 5(a)(7)       Summary of Significant Reports                          4-7
                      Statistical Table showing Questioned and
Section 5(a)(8)                                                                14
                      Unsupported Costs
                      Statistical Table showing Recommendations Where
Section 5(a)(9)                                                                14
                      Funds Could be Put to Better Use
                      Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)      the Reporting Period for Which no Management            None
                      Decision Has Been Made
                      Description of Any Significant Revised Management
Section 5(a)(11)                                                              None
                      Decisions
                      Information Concerning any Significant Management
Section 5(a)(12)
                      Decision with Which the Inspector General is in         None
                      Disagreement
Section 5(a)(13)      Information described under section 5(b) of FFMIA        12
                      Results of Peer Review Completed During This
Section 5(a)(14)                                                             10, A-1
                      Period or Date of Last Peer Review
                      List of Any Outstanding Recommendations From
Section 5(a)(15)                                                              N/A
                      Peer Review
                      List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                              N/A
                      Office of Inspector General During this Period



                                             iii
                   Report Period: April 1, 2010 through September 30, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                          Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative support services
covering all Commission programs and operations. The mission of the Inspector General
is to promote and preserve the effectiveness, efficiency, and integrity of the Commission.
The Office of Inspector General’s activities are planned and conducted based on
requirements of laws and regulations, requests from management officials, and
allegations received from Commission personnel and other sources.

A permanent Inspector General for the Commission was hired in December of 2009 and
initial emphasis has been to identify workload requirements and rebuild the Office of
Inspector General. During this reporting period, the Inspector General developed and
issued a five-year strategic plan for fiscal years 2011–2015 that aligns with the strategic
objectives of the Commission. The strategic planning process solicited input from a
broad group of stakeholders, including the Commissioners and Office Directors, to aid in
identifying the priorities, challenges, and risks facing the Commission. The strategic plan
was then used as the foundation to develop the FY 2011 Annual Audit Plan, which was
completed on September 16, 2010. A staffing plan and budget analysis were also
developed to support the activities identified in the plan. This process identified the need
for additional staff, and a fifth Office of Inspector General staff member was hired on
September 26, 2010.



                      Semiannual Report Introduction
This Semiannual Report begins with the identification of the three most significant
management challenges facing the Commission. It then provides the results of the four
reports issued during this period, describes significant recommendations from prior
reports which have not received corrective action, and summarizes the reviews conducted
by external parties related to the Commission and the Office of Inspector General. The
last section supplies information on other reportable activities such as congressional
requests, participation in the Council on Inspectors General for Integrity and Efficiency,
regulatory reviews, and compliance activities. Additional tables at the end of the report
detail statistics on Office of Inspector General reports and recommendations.




                                               1
                     Report Period: April 1, 2010 through September 30, 2010
              U.S. International Trade Commission
                        Inspector General Semiannual Report


             Top Management & Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with this assessment for inclusion in the annual
Performance and Accountability Report. This assessment was based on information from
the Office of Inspector General’s audit and inspection work, a general knowledge of the
Commission’s programs and activities, and input from management regarding challenges
facing the agency and efforts the agency has taken to address them. Recent management
and performance challenges identified by the Office of Inspector General include the
three areas identified in Table 2.

                       Table 2: Management & Performance Challenges

                      Management & Performance Challenges
               1. Internal Control
               2. Financial Management
               3. Information Technology Security



1. Internal Control
Commission management is responsible for establishing and maintaining a system of
internal controls that ensure effective and efficient operations, reliable financial reporting,
and compliance with laws and regulations. Reviews performed over the past year have
identified weak or non-existent internal controls. The most significant weaknesses
identified were noncompliance with the Federal Manager’s Financial Integrity Act and
OMB Circular A-123, Management’s Responsibility for Internal Control.

Although initially identified in the financial management and procurement areas, the
internal control weaknesses appear to be a systemic problem throughout the Commission.
The Commission has a long standing culture of undocumented and informal processes to
complete daily tasks. Documented and consistent processes and procedures are necessary
to provide a reasonable level of assurance that the organization is operating in an efficient
and cost-effective manner. The most significant challenge will be managing the cultural
changes associated with implementing new systems of internal control throughout the
Commission.




                                               2
                     Report Period: April 1, 2010 through September 30, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


2. Financial Management

As a steward of taxpayer dollars, the Commission is responsible for implementing sound
financial management practices. The Commission has struggled to assure the accuracy of
the annual financial statements and does not have the technical system expertise to
provide managers access to timely, reliable, and practical financial information in order
to make informed decisions. Deficiencies in financial management have been previously
reported, however efforts to overcome the problems have not been fully successful.

The Commission lacks the necessary technical or analytical skills required to provide the
appropriate reports and documentation to support the annual financial statement
reporting. In addition, the lack of timely and practical financial reporting deprive
managers of information needed to effectively monitor the expenditure of funds, evaluate
program performance, and make informed financial decisions on their programs and
operations.

Budget formulation, budget execution, procurement, accounting, and financial reporting
should be fully integrated with agency operations and include transparent processes that
promote accountability and deter potential fraud, waste, and abuse of agency resources.
The management challenge will be to transform the current approach to financial
management from an accounting exercise to a process that provides transparency and
accountability of agency budgetary resources.

3. Information Technology Security
In order to fulfill its core strategic goals, the public must trust the Commission to protect
its proprietary business information. In the process of conducting investigations, the
Commission regularly collects and uses sensitive proprietary business data, including
company-specific financial, production, and trade data. The Commission must ensure
that proper security controls are in place to protect and secure sensitive data.
Continuously evolving security threats, the sensitive nature of the Commission’s
investigations, and the use and storage of data on corporate financial performance
indicators make the Commission’s information systems high risk targets for attack . As a
result, the Commission must continue to refine and improve its information security
program.

Use of information technology is an integral component of the Commission’s day-to-day
operations, including communications with the public. The Commission currently does
not have a disaster contingency plan in place to restore data and operations if an event
were to occur that disabled the network. Without a plan, the Commission may not be
able to restore core business functions or minimize the disruption of services. These
weaknesses were identified in a previous audit report and the recommendations remain
outstanding. This management challenge will require dedicated funding, skilled

                                               3
                     Report Period: April 1, 2010 through September 30, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


resources, and time to resolve. The Chief Information Officer has also identified this as
the most critical risk facing the Commission.



              Inspector General Reports Issued this Period
The reports issued during this period focused on two of the Commission’s top
management challenges—financial management and information security. The Inspector
General issued four reports with a total of twenty recommendations. The Commission
made management decisions on all the recommendations and the Inspector General
agreed with all management decisions. During this period, the Commission completed
final action on eleven of these management decisions. A listing of each report by subject
matter is provided in Table 3 below. The key findings of each report are presented in the
sections that follow.

                             Table 3: Reports by Subject Matter

                              Reports by Subject Matter
 Subject        Report                Report Title                  Date           Results
 Matter         Number                                             Issued
                              Confirmation Property, Plant,
Financial     OIG-AR-07-10                                       07/01/2010    6 Recommendations
                              and Equipment Balance 2009
                              Internal Controls Related to
Financial     OIG-AR-08-10                                       07/07/2010    1 Recommendation
                              Property, Plant, and Equipment
IT Security   OIG-AR-09-10    Patching of ITC Workstations       06/23/2010    6 Recommendations
IT Security   OIG-AR-10-10    Software Inventory                 07/13/2010    7 Recommendations
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put
to better use in any of these reports.


Audit on the Examination and Confirmation of the Balance on the Property, Plant,
and Equipment Account on the 2009 Financial Statement, OIG-AR-07-10

The Inspector General engaged the services of an independent accounting firm to perform
audits on specific components of the 2009 financial statements. The first audit was to
examine assets recorded in the Property, Plant, and Equipment account on the 2009
financial statement.

We found that the Commission did not have a standardized process to identify, capitalize,
reconcile, and manage assets reported in the Property, Plant, and Equipment account. As
a result, assets and expenses on the 2009 balance sheet in the Property, Plant, and


                                               4
                     Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report


Equipment account could not be substantiated. The following three problem areas
contributed to the inability to confirm the balances.

   x   Lack of understanding of the Statement of Federal Financial Accounting
       Standards impact on the procurement of assets.
   x   Lack of reconciliation of the Property, Plant, and Equipment account balance.
   x   Asset files were not established and maintained with sufficient documentation.

The audit identified six recommendations to address the three problem areas. The
Chairman concurred with our assessment, and acknowledged that the three problem areas
identified in the report needed to be resolved. They are now being addressed by
management.

The audit also identified five conditions that had already been identified in a previous
audit report. Management decisions were agreed upon and corrective action was already
in progress during the performance of this audit. The findings were noted as repeatable
conditions in the audit report and no additional recommendations were identified to
address these areas.

Audit of Internal Controls Related to the Property Plant and Equipment Account,
OIG-AR-08-10

An independent accounting firm was engaged by the Inspector General to conduct an
audit of the internal controls related to the Property, Plant, and Equipment account.

We found that the Commission did not have policies or procedures in place to identify
the documentation required to support on-top adjustments or capital acquisitions. As a
result, the Commission has not maintained complete or accurate documentation to
support the values reported in the Property, Plant, and Equipment account.

The audit identified nine conditions related to policies, procedures, resources, and
training which had already been identified in a previous audit report. Management
decisions were agreed upon and corrective action was already in progress to address these
problems. These findings were noted as repeatable conditions in the audit report.

The audit also identified one new recommendation. The Chairman concurred with our
assessment and acknowledged that the three problem areas identified in the report needed
to be resolved. They are currently being addressed by management.




                                              5
                    Report Period: April 1, 2010 through September 30, 2010
              U.S. International Trade Commission
                       Inspector General Semiannual Report


Audit on the Patching of ITCNet Workstations, OIG-AR-09-10

An audit was conducted that evaluated the patching process for workstations to determine
if it was effectively reducing the Commission's risk. Patch management is an essential
element of an information technology security program that controls the deployment and
maintenance of software releases to help maintain efficiency and overcome security
vulnerabilities.

The audit found that the Commission’s patching process was ineffective. All
workstations included in the audit were missing high severity patches. In total, 28,320
high severity patches were missing on 354 workstations, averaging 80 missing patches
per workstation. We identified three problem areas that contributed to the ineffectiveness
of the patching workstations.

   x   The Commission did not measure or monitor the patch status of workstations.
   x   The responsibility for patching workstations was unclear.
   x   The Commission did not have an automated system-wide process to patch
       workstations.

We issued six recommendations to address the three problem areas. The Chairman
concurred with our assessment, acknowledged that the three problem areas presented
significant material risks, and undertook immediate action to reduce its vulnerabilities.

As of the date of the final audit report, the aggregate number of missing High Severity
patches had decreased by 91.7%, from 28,320 to 2,333, and the average number of
missing High Severity patches per workstation had decreased from 80 to 7, as seen in
Chart 1.




                                               6
                     Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                       Inspector General Semiannual Report


                    Chart 1: Average Missing High Severity Patches.

Average Missing High Severity Patches

       90
             80
       80
       70
       60                      54
       50
       40
                                                                   34
       30
       20
                                                                              11   7
       10
        -




Audit of Software Inventory, OIG-AR-10-10

An audit was conducted to determine if the Commission maintained an accurate
inventory of software on ITCNet. Effective software inventory management practices
reduce support requirements, limit vulnerabilities, and provide a better means of
complying with software licensing requirements.

We found that the Commission did not maintain an accurate inventory of software on
ITCNet. The Office of the Chief Information Officer provided a listing of 260
inventoried software applications. We identified more than one thousand unique installed
applications on ITCNet. An analysis of the installed applications identified the following
three problem areas related to the software inventory:

   x   Commission workstations had software installed that was unrelated to business
       needs, such as Monopoly, Skype, and TurboTax;
   x   The Commission used multiple applications from different vendors to perform the
       same function; and
   x   Software versions were not standardized, causing the Commission to have
       multiple versions of the same applications.

We issued seven recommendations to resolve the problem areas found in this audit. The
Chairman agreed with our assessment that the Commission had not maintained an
                                           7
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                       Inspector General Semiannual Report


accurate and full accounting of installed software applications, and recognized the need
to resolve the three identified problem areas.



         Significant Recommendations from Prior Periods
The Commission has nine recommendations described in prior semiannual reports where
corrective action is not yet complete. The Inspector General identified five of the nine
recommendations as significant. A list of each report containing the nine open
recommendations is provided in Table 7.

Three of the recommendations were originally made in 2005 to address weaknesses in the
Commission’s plans for continuity of operations. The recommendations are associated
with disaster contingency plan updates, restoration of data, and an alternate processing
facility. They are significant because the Commission may be unable to restore core
business functions or minimize the disruption of services if an event were to occur.

The remaining two recommendations are related to policies and procedures for financial
management activities. These were identified as significant because the lack of
documented policies and procedures was a contributing factor to the material weaknesses
identified over financial reporting, financial analysis, and management oversight in the
internal control audit for the 2009 financial statements.

While these significant recommendations have been previously reported, they all remain
on track to meet the scheduled target completion dates. Additionally, a list of each
significant recommendation by report number is provided in Table 4.



          External Reviews Completed During This Period
Office of Personnel Management – Personnel Security and Suitability Program

The Office of Personnel Management (OPM) performed a review of the Commission’s
Personnel Security and Suitability Program. The review involved examining and
measuring key program areas including position designation processes, investigation
request processes, adjudication processes, and processes supporting reform goals and
reciprocity. The final report was issued on July 21, 2010. The report acknowledged that
the Commission has satisfied some performance goals and provided 22 recommendations
for management decisions. A summary of the findings by area are provided below.




                                              8
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report


Area 1: Suitability and Security Performance Goals and Measurements:
In this area, OPM determined that the Commission did not meet some of the performance
goals established by the Performance Accountability Council. They identified five
recommendations to address the following four findings:

   x   The Commission did not properly calculate or submit the Commission’s annual
       projection of investigative requirements to OPM.
   x   The Commission did not use the Central Verification System to determine if an
       applicant has a reciprocally acceptable investigation before requesting an
       investigation.
   x   The Commission did not meet the requirement of submitting investigation
       requests within 14 days of the applicant signing and certifying the request.
   x   The Commission did not meet the goals for adjudicative timelines.

Area 2: Designation of Position Risk/Sensitivity Level
OPM determined that the Commission did not properly designate positions. As a result,
the Commission did not submit the proper investigations request forms, and did not
request the proper level of investigation. Four recommendations were identified to
address this finding.

Area 3: Investigations and Re-Investigations:
OPM identified six recommendations to address the following three findings:

   x   The Commission’s source data for investigations and re-investigations contained
       discrepancies in the employee’s personally identifiable information.
   x   The Commission did not properly follow the suitability determination process.
   x   The Commission did not always request reinvestigations in a timely fashion.

Area 4: Adjudications of Background Investigations:
OPM determined that the Commission did not follow the suitability adjudication criteria
of 5 CFR 731 or use the Suitability Processing Handbook when performing the
adjudication assessments. One recommendation was provided to resolve this finding.

Area 5: Storage and Access to Information:
OPM identified three recommendations to address the following two findings:
   x The Commission did not follow the guidance in E.O. 12958 regarding the proper
       handling and storage of classified information.
   x The Commission did not properly maintain files for individuals holding security
       clearances.

Area 6: Written Instructions and Notices
OPM found that the Commission did not have sufficient internal program guidelines and
standard operating procedures and provided one recommendation to resolve this finding.
                                           9
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report


Area 7: Training and Certification:
OPM found that the Commission’s security personnel were not adequately trained in all
areas of program operation and provided one recommendation to resolve this finding.

In closing, OPM recommended that the Commission complete a manpower study to
determine if the program is properly resourced and suggested a complete program
restructuring. The Commission generally concurred with the recommendations, made
management decisions, and corrective action is currently underway to resolve the issues
identified in the report.



    Status of Actions Related to External Reviews Completed
                      During Prior Periods
Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations being made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital
program. The Commission made management decisions to implement all of the
recommendations and completed final action on 16 recommendations this reporting
period, bringing the total recommendations closed to 50 overall. The Commission is
working on implementing the remaining 33 management decisions.



    External Reviews Related to Inspector General Activities
Peer Review of the Office of Inspector General Audit Function

The Inspector General from the National Archives and Records Administration (NARA)
performed a peer review of the audit functions of the Commission’s Office of Inspector
General. The NARA Inspector General was tasked to review the system of quality
control in effect from October 1, 2008 through September 30, 2009. The NARA
Inspector General was unable to express an opinion on the audit program because no
audits had been conducted in the past five years. The final system report was issued on
May 27, 2010 and identified seven problem areas. Thirteen specific actions were
identified and implemented to address the seven recommendations.

The results of the peer review are provided in Appendix A. The full report can be found
on our website at http://www.usitc.gov/oig/documents/NARAReport_00001.PDF .
                                            10
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                       Inspector General Semiannual Report


Government Accountability Office (GAO) Review of Inspector General Oversight of
the Commission

The GAO completed fieldwork for a review of oversight activities of the Inspector
General at the Commission. The GAO issued a draft report on September 27, 2010 for
review and comment. It identified one recommendation for the Inspector General. The
final report was issued at the end of October.



                      Congressional Liaison Activities
During this period the Inspector General responded to two congressional inquiries. The
first inquiry was from the Ranking Member of the House Committee on Oversight and
Government Reform. The request was a follow-up to a report issued by the Committee
regarding opportunities to save taxpayer money by implementing open recommendations.
Specifically, he was seeking updated information on the status of the Commission’s open
and unimplemented recommendations.

The second inquiry was from the Ranking Member of the Senate Committee on Finance,
and the Ranking Member of the Senate Committee on Homeland Security and
Governmental Affairs, Permanent Subcommittee on Investigations. The request sought
information from the Inspectors General community in support of their oversight
activities and continued effort to protect the independence of the Inspectors General.


Council on Inspectors General for Integrity and Efficiency
Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE). On August 12,
2010, the Inspector General entered into an interagency agreement with the CIGIE and
approved the transfer of funds to cover planned costs associated with carrying out the
functions and duties of the CIGIE for fiscal year 2010.




                                              11
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report



                               Regulatory Reviews
The Inspector General performed one regulatory review during this period on a notice of
proposed rulemaking to amend the rules of general adjudication and enforcement.



  Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntary seeks to
comply with its requirements. During this reporting period, there were no events giving
rise to a duty to report under FFMIA.




                                              12
                    Report Period: April 1, 2010 through September 30, 2010
             U.S. International Trade Commission
                      Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed

                     Prior Significant Recommendations
               Where Corrective Action Has Not Been Completed
 Report Number                                     Recommendation
                     Develop, document, and test an agency-wide Continuity of Operations
                     Program (COOP) plan in accordance with Federal Preparedness Circular
  OIG-AR-04-05
                     (FPC) 65, Federal Executive Branch Continuity of Operations, and NIST
                     SP 800-34 guidelines.
                     Ensure major applications and general support system contingency plans
  OIG-AR-04-05
                     are updated and tested in accordance with NIST SP-800-34 guidelines.
                     With respect to each mission-critical application and general support
                     system, determine if an alternate processing facility is necessary and
  OIG-AR-04-05       identify the respective facility. At this alternate facility, contingency
                     plans should be tested and arrangements made for its use in the event of a
                     major interruption or disaster.
                     Establish formal policies and procedures to ensure the Commission is able
                     to comply with applicable accounting, financial management, and
  OIG-AR-02-10       reporting standards and regulations. These policies and procedures
                     should incorporate adequate segregation of duties, as well as a sufficient
                     level of review and approval process.
                     Formalize and periodically update policies and procedures to provide
                     guidance to management and staff in performing their responsibilities
                     specific to financial management. These procedures should incorporate,
  OIG-AR-02-10
                     at a minimum, routine accounting procedures and financial reporting
                     requirements to ensure the timeliness and accuracy of financial
                     statements.




                                              13
                    Report Period: April 1, 2010 through September 30, 2010
        U.S. International Trade Commission
                  Inspector General Semiannual Report

              Table 5: Reports with Questions and Unsupported Costs

           Reports with Questioned and Unsupported Costs
                           Section 5(a)8
                                        Number of       Questioned        Unsupported
           Description
                                         Reports          Costs              Costs
Reports for which no management
decision has been made by the
                                               0              $0                $0
commencement of the reporting
period.
Reports issued during the reporting            4
                                                              $0                $0
period.
                          Subtotals            4              $0                $0
Reports for which a management
decision was made during the                   4              $0                $0
reporting period.
     x Dollar value of disallowed              0              $0                $0
         costs.
     x Dollar value of allowed                 0              $0                $0
         costs.
Reports for which no management
decision has been made by the end              0              $0                $0
of the reporting period.

      Table 6: Reports w/ Recommendations that Funds be Put to Better Use

  Reports with Recommendations that Funds be Put to Better Use
                        Section 5(a)9
                                                      Number of           Funds Put to
                  Description
                                                       Reports             Better Use
Reports for which no management decision has
been made by the commencement of the                         0                 $0
reporting period.
Reports issued during the reporting period.                  4                 $0
                                        Subtotals            4                 $0
Reports for which a management decision was
                                                             4                 $0
made during the reporting period.
    x Dollar value of recommendations agreed                 0                 $0
        to by management.
    x Dollar value of recommendations not                    0                 $0
        agreed to by management.
Reports for which no management decision has
                                                             0                 $0
been made by the end of the reporting period.


                                          14
                Report Period: April 1, 2010 through September 30, 2010
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 7: Status of Reports Issued Without Final Action

                   Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                               Decisions
                                                                                Final     Action
                                        # of       Mgt.           IG
             Report Title                                                      Action      Not
                                        Recs.    Decisions     Disagrees
                                                                              Complete   Complete
                                                                 With
    Confirmation Property, Plant,
1                                         6            6            0             4         2
    and Equipment Balance 2009
2   Patching of ITC Workstations         6             6            0             5         1
3   Software Inventory                    7             7           0              1        6
            Subtotal Current Period      19            19           0             10        9
                                   Prior Reporting Periods
                                                               Decisions
                                                                                Final     Action
                                        # of       Mgt.           IG
             Report Title                                                      Action      Not
                                        Recs.    Decisions     Disagrees
                                                                              Complete   Complete
                                                                 With
    Independent Auditor’s Report
    on Internal Controls for 2009
1                                        13            13           0             10        3
    Financial Statements,
    11/06/2009
    Management Letter for 2009
2   Financial Statements,                 6            6            0             4         2
    12/08/2009
    Federal Information Security
    Management Act Fiscal Year
3                                        11            11           0             10        1
    2009 Performance Audit,
    03/09/2010
    Federal Information Security
    Management Act Fiscal Year
4                                        14            14           0             11        3
    2004 Performance Audit,
    09/27/2005
               Subtotal Prior Period     44            44           0             35        9




                                                  15
                        Report Period: April 1, 2010 through September 30, 2010
               U.S. International Trade Commission
                           Inspector General Semiannual Report

                    Table 8: Status of Reports With Final Action Completed

                 Status of Reports With Final Action Completed
                              During This Reporting Period
                                                                   Decisions
                                     # of          Mgt.                          Final Action
            Report Title                                          IG Disagrees
                                     Recs.       Decisions                        Complete
                                                                     With
    Audit of Internal Controls
1                                      1              1                 0             1
    Related to the PP&E Account




                                                16
                      Report Period: April 1, 2010 through September 30, 2010
                                U.S. International Trade Commission
                                                        Appendix A

APPENDIX A:
         A Results
            R l off Peer
                    P    Review
                         R i
The table below identifies the seven recommendations and the corrective actions from the peer review. All corrective actions
were completed by September 30, 2010.

                                           Results of Peer Review
                                                     Recommendation 1
The ITC OIG should develop written policies and procedures designed to provide reasonable assurance that GAGAS and
other pertinent requirements are met.
                                            Management Decision                                                    Status
The ITC OIG will develop written policies to provide reasonable assurance that GAGAS and other pertinent
                                                                                                                  Completed
requirements are met.
The ITC OIG will develop written procedures to support the policies.                                              Completed
                                                    Recommendation 2
The ITC OIG should develop a method to maintain documentation showing continuing professional education and training for
auditors to determine and ensure they have met the GAGAS requirements.
                                            Management Decision                                                    Status
The ITC OIG will develop a policy to ensure auditors have met the GAGAS training requirements.                    Completed
The ITC OIG will develop a system to maintain documentation to track CPE training for auditors.                   Completed
                                                    Recommendation 3
The ITC OIG should develop a method to track audits (e.g., audits scheduled, cancelled, terminated, or completed during the
period).
                                            Management Decision                                                      Status
The ITC OIG will develop a procedure to track audits scheduled, cancelled, terminated, or completed during the
                                                                                                                  Completed
period.
The ITC OIG will develop a system to track audits as required in the procedure.                                   Completed
                                                     Recommendation 4
The ITC OIG should develop a method to track and follow-up on recommendations to ensure corrective action was taken.

                                              Management Decision                                                   Status
The ITC OIG will develop a procedure to track, follow-up and document when corrective action was taken on
                                                                                                                   Completed
recommendations.
The ITC OIG will develop a system to follow-up on recommendations in accordance with the procedures.               Completed
                                                      Recommendation 5
The ITC OIG should maintain records supporting compliance with GAGAS including communication of external peer reviews
to appropraite oversight bodies.
                                              Management Decision                                                   Status
The ITC OIG will develop a policy to maintain records supporting compliance with GAGAS.                            Completed
The ITC OIG will post the results of this audit on our public website within 3 working days after receipt of final
                                                                                                                   Completed
report.
The ITC OIG will transmit a copy of this audit report to the appropriate oversight bodies within 3 working days
                                                                                                                   Completed
of receipt of the final audit report.
                                                       Recommendation 6
The ITC OIG should perform audits relating to the programs and operations of ITC in accordance with GAGAS.
                                              Management Decision                                                   Status
The ITC OIG will include audits relating to the programs and operations of ITC in the FY2011 audit plan.           Completed
                                                       Recommendation 7
The ITC OIG should use the GAO/PCIE FAM 650 as guidance in making the judgments necessary for the OIG to use the work
of other auditors and specialists and for determining the extent of the review and maintenance of supporting documents for
determining the contractor's compliance with GAGAS.
                                              Management Decision                                                   Status
The ITC OIG will develop procedures to use GAO/PCIE FAM 650 as guidance when monitoring the work of an
                                                                                                                   Completed
IPA to determine the extent of their compliance with GAGAS.
                                                             A-1

                                              Appendix A: Peer Review Results
             U.S. International Trade Commission
                                        Appendix B

Appendix B: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs


  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              4              $0
 Reports for which final action had not been taken by
                                                                4              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                4              $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                1              $0
 reporting period.
     x Dollar value of disallowed costs, recovered              0              $0
         by management.
     x Dollar value of disallowed costs written off             0              $0
         by management.
 Reports for which no final action has been taken by
                                                                7              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                    4           $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    4           $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    1           $0
 reporting period including:
     x Dollar value of recommendations that were                    0           $0
         actually completed.
     x Dollar value of recommendations that                         0
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                    7           $0
 end of the reporting period.


                                             B-1

                        Appendix B: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix B

         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                             Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                               Costs
                                                  Use          Been Taken
                                                            Provided in Section 3
OIG-AR-04-05     09/27/2005         $0            $0         of the Chairman’s
                                                                    letter




                                     B-2

                 Appendix B: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
